FEDERAL TRADE COMMISSION
   OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS

  April 1, 2009 – September 30, 2009


             Report No. 42
                                   CONTENTS
INTRODUCTION______________________________________________________ 1
AUDIT and RELATED ACTIVITIES _____________________________________ 1
 Completed Audits ___________________________________________________________ 1
 Audit Activities Planned or In-Progress _________________________________________ 2
 Other Potential Reviews ______________________________________________________ 3
INVESTIGATIVE ACTIVITIES _________________________________________ 4
 Investigative Summary_______________________________________________________ 4
 Investigations Closed ________________________________________________________ 5
 Investigative Concern ________________________________________________________ 5
 Matters Referred for Prosecution ______________________________________________ 5
OTHER ACTIVITIES __________________________________________________ 6
 Outreach to the FTC Community ______________________________________________ 6
 Liaison with Other Agencies __________________________________________________ 6
 Activities within the Inspector General Community _______________________________ 6
MANAGEMENT CHALLENGES ________________________________________ 7
 Significant Management Decisions _____________________________________________ 7
 Access to Information________________________________________________________ 7
 Audit Resolution ____________________________________________________________ 8
 Review of Legislation ________________________________________________________ 8
 Contacting the Office of Inspector General ______________________________________ 8
TABLE I: SUMMARY OF INSPECTOR GENERAL REPORTING
REQUIREMENTS _____________________________________________________ 9
TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED
COSTS ______________________________________________________________ 10
TABLE III: INSPECTOR GENERAL ISSUED REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE __________ 11




                                        i
                                    INTRODUCTION

The Federal Trade Commission (FTC) seeks to ensure that the nation’s markets are
competitive, efficient and free from undue restrictions. The FTC also seeks to improve
the operation of the marketplace by ending unfair and deceptive practices with emphasis
on those practices that might unreasonably restrict or inhibit the free exercise of informed
choice by consumers. The FTC relies on economic analysis to support its law
enforcement efforts and to contribute to the economic policy deliberations of Congress,
the Executive Branch and the public.

To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) has 5 staff members and a budget of $1,073,700 for
fiscal year 2009.




                    AUDIT and RELATED ACTIVITIES

During the six month reporting period ending September 30, 2009, the OIG issued an
inspection report of the FTC’s oversight of sole source contracts.

                                 Completed Audits

The OIG completed the following during the second half of FY 2009:

     IR 09-002 - Final Inspection Report of FTC COTR Oversight
                       of Sole Source Contracts

This report presents the results of our inspection of the Federal Trade Commission's (FTC)
Contracting Officer Technical Representative (COTR) Oversight of Sole Source Contracts.
The objective of this inspection was to determine whether COTRs are monitoring sole source
contractors' activities to ensure that they deliver the goods or services listed in the contract in
a timely manner, meet or exceed contract requirements, and control overall contract costs.




                                                1
Overall, we found that COTRs were adequately monitoring contractor activities; that the FTC
received goods and services in a timely manner; contractors met or exceeded contract
requirements and staff was cognizant of cost controls. We did, however, find that training for
COTRs as well as training for continuing education requirements as mandated by OMB, did
not meet the needs of the COTRs assigned to oversee sole source contracts for expert
witnesses and consultants.

We recommended that the Assistant Chief Financial Officer (CFO) for Acquisition develop
training programs, both introductory and continuing education, to address the specific needs
of COTRs appointed to oversee expert witness and consultant contracts. We also
recommended that the Assistant CFO for Acquisition work with the Human Resources
Management Office to define the duties of a COTR and include them in the performance plans of
all staff who are assigned COTR duties. Management generally agreed with the recommendations
in the report.

We conducted this inspection in accordance with Quality Standards for Inspections, January
2005 as adopted by the Council of Inspectors General for Integrity and Efficiency.

              Audit Activities Planned or In-Progress

The OIG plans the following audit related activities during the first half of FY 2010:

AR 09-001 - Annual FISMA Review for Fiscal Year 2009

The Federal Information Security Management Act of 2002 (FISMA) requires an annual
review of federal agency information security programs and practices to determine their
effectiveness. To assist us in conducting this review, we hired an independent consultant
to perform this work. The OIG will act as the Contracting Officer’s Technical
Representative (COTR) and perform oversight during the execution of this contract. The
review includes evaluating the adequacy of the FTC’s computer security program and
practices for its major systems. This year, the review will focus on the FTC’s General
Support System Infrastructure, FIPS 199 Security Categorization, the privacy report, and
FTC’s Plan of Action and Milestones to determine the extent to which the agency has
implemented previously agreed upon OIG and other internally identified
recommendations. This will enable the OIG to provide feedback to management on the
results of its efforts to address program weaknesses.


AR 09-002 - Audit of the FTC’s Financial Statements
            for Fiscal Year 2009

This audit is required annually under the Accountability of Tax Dollars Act of 2002. We
contract out this audit to an independent public accountant to perform this work. The
OIG will serve as the COTR and provide oversight on the contract. The purpose of the
audit is to express an opinion on the financial statements of the Federal Trade
Commission for the fiscal year ending September 30, 2009. The audit will also test the

                                              2
internal controls associated with the FTC’s financial system and assess compliance with
selected laws and regulations. The audited financial statements are required to be
included in the financial section of the agency’s Performance and Accountability Report
to be issued on or before November 16, 2009.

The OIG continues its work on the following audit:

FTC Travel Program

The objective of this audit is to determine compliance with applicable travel regulations.
We will determine whether internal controls are in place and operating effectively to deter
fraud, waste and abuse regarding travel program funds. We will also review the FTC
travel card program, the electronic FedTraveler system, and other systems related to the
FTC travel program. This audit was originally scheduled to cover the period through
March 2008, but has been extended to include data through the end of the fiscal year
2009.

FTC External Peer Review

In accordance with auditing standards, an independent federal OIG performs a qualitative
peer review of FTC OIG’s system of quality control to determine whether the OIG’s audit
process is suitably designed and operating effectively. The external peer review includes a
review of audit documentation, tests of functional areas, and staff interviews.

The most recent performance and financial audit peer review was issued in December
2007. The review found that our quality control system for the audit function of the FTC
OIG in effect for the 18 months ended March 31, 2007, was suitably designed and
operating effectively, to provide the FTC OIG with reasonable assurance of conforming
with the United States Government Auditing Standards.

The quality control system of the FTC OIG is currently being reviewed for the three years
ended March 31, 2009. This review is being conducted in accordance with the guidelines
established by the Council of the Inspectors General on Integrity and Efficiency.

                         Other Potential Reviews

       During the upcoming year we will also conduct research on the following program
functions to determine the need for further audit work:

        Review of the redress payment process
        Review of inventory controls over accountable property
        Design of new data center, business impact assessments, and disaster recovery
         for information technology resources
        Review of the effectiveness of infrastructure and security management



                                            3
                      INVESTIGATIVE ACTIVITIES

The Inspector General is authorized by the IG Act to receive and investigate allegations
of employee misconduct as well as fraud, waste and abuse occurring within FTC
programs and operations. Matters of possible wrongdoing are referred to the OIG in the
form of allegations or complaints from a variety of sources, including FTC employees,
other government agencies and the general public. Reported incidents of possible fraud,
waste and abuse can give rise to administrative, civil or criminal investigations.

                          Investigative Summary

During this reporting period, the OIG received 66 consumer and other inquiries and
reports of possible wrongdoing. Of the 66 complaints 36 involved issues that fall under
the jurisdiction of FTC program components (identity theft, credit repair, etc.). These
matters were referred to the appropriate FTC component for disposition.

Of the remaining complaints, the OIG opened one new investigation and 11 complaints
were closed with no further OIG action. Fifteen of the remaining complaints involved a
preliminary OIG inquiry that consumed considerable OIG resources but did not result in
a full phase OIG investigation. Three complaints to the OIG were referred to another
federal or state agency with appropriate jurisdiction.

Following is a summary of the OIG's investigative activities for the six-month period
ending September 30, 2009:

                          Cases pending as of 3/31/09       3
                          PLUS: New cases                   1
                           LESS: Cases closed              (2)
                          Cases pending as of 9/30/09       2




                                           4
                           Investigations Closed

During this reporting period, the OIG closed two criminal investigations. The first
investigation involved alleged unauthorized disclosure of nonpublic information to the
press. The OIG received separate allegations from independent sources concerning the
disclosure of nonpublic information by a member of Commission staff. The
unauthorized disclosure was made to a news service which published an online article
reporting that the Commission intended “as early as today” to file a complaint against
Cephalon for violations that ultimately were included in the complaint. The online news
article published by the news service was available to the public more than three hours
prior to issuance of the FTC’s press release. Stock values for the affected company
declined sharply for several hours until their return to pre-disclosure levels on the
following day when markets opened. The OIG investigation revealed no conclusive
evidence regarding the source of the press leak and the matter was closed.

The second investigation closed during this reporting period involved alleged misuse of
Government property by contractor staff working at the FTC. The OIG conducted an
investigation that confirmed misuse of Government property. During the investigation,
the OIG obtained evidence of false statements made by the contractor employee, in
violation of 18 U.S.C. §1001. The OIG informed FTC management and a contractor
official about the employee’s false statement. The contractor immediately removed its
employee from the FTC contract. The OIG closed the investigation regarding misuse of
Government property. The OIG is continuing its inquiry into additional possible
misconduct revealed during the closed investigation.


                          Investigative Concern

For more than a year, the OIG has received numerous consumer complaints related to
lottery and sweepstakes scams where names of federal agencies and agency staff are
being used to add an air of legitimacy, and solicit consumer participation. The OIG
continues to work with FTC and with outside law enforcement agencies in addressing
these scams. In addition, the OIG has posted a scam alert on the OIG website at
http://www.ftc.gov/oig/.

                  Matters Referred for Prosecution

During this reporting period the OIG did not refer any new matters to the Department of
Justice (DOJ) for consideration of potential criminal action. The OIG consulted with DOJ
prosecutors regarding pending OIG investigations.

A matter referred to DOJ during the previous reporting period remains pending at DOJ
(Office of Public Integrity), with no final action to date.




                                           5
                              OTHER ACTIVITIES


                   Outreach to the FTC Community

The OIG has designed its first hotline poster. These posters were distributed throughout
the Headquarter and field office locations in September 2009. The posters are designed to
spread awareness and staff interest about our office and mission and to let employees
know that we are available to assess allegations of waste, fraud and abuse regarding
agency operations. A copy of the poster is attached in this report.


                       Liaison with Other Agencies

During this reporting period, our investigative staff continues to assist the Legal Services
Corporation (LSC) OIG in the prosecution of a matter handled by the Assistant United
States Attorney in the Western District of Texas. Our staff member investigated the
matter as an employee of LSC OIG prior to joining the FTC OIG.

In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with other law enforcement agencies, including other
OIGs, the Federal Bureau of Investigation, the U.S. Postal Inspection Service, the U.S.
Secret Service, the U.S. Marshals Service, the Internal Revenue Service, U.S. Capitol
Police, Federal Protective Service as well as state agencies and local police departments.

    Activities within the Inspector General Community

The FTC IG is an active participant in the Council of the Inspectors General on Integrity
and Efficiency (CIGIE), a council of inspectors general that promotes collaboration on
integrity, economy, and efficiency issues that transcend individual agencies. The IG is
also the vice-chair of the Audit Committee of the CIGIE.
The FTC Inspector General is also the chair of the audit committee overseeing the audit
of the Department of Defense Inspector General’s financial statements. In this capacity,
the IG along with two other senior government officials provides oversight on the DOD
IG’s financial statement audit.
The OIG Audit Manager participates regularly in the monthly meeting of the Financial
Statement Audit Network, and was part of the working group that revised the CIGIE
Audit Committee Guide for External Peer Reviews.




                                             6
Our IG Counsel participates regularly in the monthly meeting of the Council of Counsel
to the Inspectors General (CCIG), as well as contributes to the legal discourse within that
Council on matters that are germane to the entire IG community.

                      MANAGEMENT CHALLENGES
The Reports Consolidation Act of 2000 requires inspectors general to identify the top
management challenges facing their agencies. At the close of FY 2009, FTC OIG
identified four areas that posed significant challenges to agency management, based on
work conducted by the OIG as well as information obtained during informal discussions
with senior leaders within the Commission. The OIG prioritized the issues based on risk
to the Commission.
In the past year, the impact of the recession can be seen in increased job losses, housing
foreclosures and continued attacks on the safety and security of our personal data. It is no
coincidence that the OIG hotline has experienced a growth in the number of calls related
to mortgage and foreclosure scams, sweepstakes and lottery scams and the misuse of the
bona fide names of FTC employees as a ruse to fraudulently obtain money. These issues
continue to reinforce our prior year assessment that management is constantly challenged
in the areas of: protection of data (both personally identifiable information and
Commission sensitive data), information technology security, and case management to
target the most significant problems. In addition, the Commission faces a continuing
challenge of retaining and recruiting senior level managers with the expected retirement
of the baby boom generation.
The OIG continues to work with management to assist in minimizing the risks in these
areas.
                 Significant Management Decisions
Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual
report. Further, Section 5(a)(11) of the Act requires that any decision by management to
change its response to a significant resolved audit finding must also be disclosed in the
semiannual report. For this reporting period there were no significant final management
decisions made with which the OIG disagreed, and management did not revise any earlier
decisions on OIG audit recommendations.

                           Access to Information
The IG is to be provided with ready access to all agency records, information, or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act
requires the IG to report to the agency head, without delay, if the IG believes that access
to required information, records or assistance has been unreasonably refused, or
otherwise has not been provided. A summary of each report submitted to the agency head
in compliance with Section 6(b)(2) must be provided in the semiannual report in
accordance with Section 5(a)(5) of the Act. During this reporting period, the OIG did not
encounter any problems in obtaining assistance or access to agency records.

                                             7
Consequently, no report was issued by the IG to the agency head in accordance with
Section 6(b)(2) of the IG Act.



                                Audit Resolution
As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached
agreement on what actions need to be taken.

                            Review of Legislation
Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or, upon request, affecting the operations
of the OIG. During this reporting period, the OIG reviewed no legislation.

           Contacting the Office of Inspector General
Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG
telephone number is (202) 326-2800. A confidential or anonymous message can be left
24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed
directly to OIG@ftc.gov. OIG mail should be addressed to:
                                Federal Trade Commission
                               Office of Inspector General
                                      Room NJ-1110
                             600 Pennsylvania Avenue, NW
                                 Washington, D.C. 20580
OIG reports can be accessed via the internet at: www.ftc.gov/oig. A visitor to the OIG
home page can download recent (1996-2009) OIG semiannual reports to Congress, the
FY 1998 - 2008 financial statement audits, and other program and performance audits
issued from FY 1999 to the present. A list of audit reports issued prior to FY 1999 can
also be ordered via an e-mail link to the OIG. In addition to this information resource
about the OIG, visitors are also provided a link to other federal organizations and Offices
of Inspector General.




                                             8
        TABLE I: SUMMARY OF INSPECTOR GENERAL
                REPORTING REQUIREMENTS


IG ACT Reference Reporting Requirement                                        Page(s)

Section 4(a)(2)    Review of legislation and regulations                          8

Section 5(a)(l)    Significant problems, abuses and deficiencies                 n/a

Section 5(a)(2)    Recommendations with respect to significant
                   problems, abuses and deficiencies                             n/a

Section 5(a)(3)    Prior significant recommendations on which
                   corrective actions have not been made                         n/a

Section 5(a)(4)    Matters referred to prosecutive authorities                     5

Section 5(a)(5)    Summary of instances where information was refused              7

Section 5(a)(6)    List of audit reports by subject matter, showing dollar
                   value of questioned costs and funds put to better use       10-11

Section 5(a)(7)    Summary of each particularly significant report               1-2

Section 5(a)(8)    Statistical tables showing number of reports and
                   dollar value of questioned costs                              10

Section 5(a)(9)    Statistical tables showing number of reports and dollar
                   value of recommendations that funds be put to better use      11

Section 5(a)(10)   Summary of each audit issued before this reporting
                   period for which no management decision was made
                   by the end of the reporting period                           n/a

Section 5(a)(11)   Significant revised management decisions                       7

Section 5(a)(12)   Significant management decisions with which
                   the inspector general disagrees                                7




                                         9
    TABLE II: INSPECTOR GENERAL ISSUED REPORTS
                WITH QUESTIONED COSTS

                                                       Dollar Value
                                                 Questioned Unsupported
                                        Number     Costs         Costs

A. For which no management
   decision has been made by
   the commencement of the
   reporting period                       0          0           0

B. Which were issued during
   the reporting period                   0          0           0

             Subtotals (A + B)            0          0           0

C. For which a management
   decision was made during
   the reporting period                   0          0           0

 (i) dollar value of disallowed
                         costs            0          0           0

   (ii) dollar value of cost not
                     disallowed           0          0           0

D. For which no management
   decision was made by the
   end of the reporting period            0          0           0

   Reports for which no
   management decision was
   made within six months of
   issuance                               0          0           0




                                   10
   TABLE III: INSPECTOR GENERAL ISSUED REPORTS
   WITH RECOMMENDATIONS THAT FUNDS BE PUT TO
                     BETTER USE


                                               Number   Dollar Value


A. For which no management decision has been
   made by the commencement of the reporting
   period                                         0         0

B. Which were issued during this reporting
   period                                         0         0

C. For which a management decision was
   made during the reporting period               0         0

  (i) dollar value of recommendations
      that were agreed to by management           0         0

     - based on proposed management
       action                                     0         0
     - based on proposed legislative
       action                                     0         0

  (ii) dollar value of recommendations
       that were not agreed to by
       management                                 0         0

D. For which no management decision has been
   made by the end of the reporting period        0         0

   Reports for which no management decision
   was made within six months of issuance         0         0




                                         11
We want to hear from you.




       Working to keep the FTC
 efficient, responsible & trustworthy.
     Report fraud, waste, abuse and mismanagement.
 Office of the Inspector General Hotline: (202) 326-2800
                   Email: OIG@ftc.gov
                     Web: ftc.gov/OIG
